                                                                Issue Date
                                                                  November 21, 2007
                                                                Audit Report Number
                                                                   2008-PH-1003




TO:        Dennis G. Bellingtier, Director, Office of Public Housing, Pennsylvania State
            Office, 3APH



FROM:      John P. Buck, Regional Inspector General for Audit, Philadelphia Regional
            Office, 3AGA

SUBJECT:   The Housing Authority of the City of Allentown, Pennsylvania, Needs to
            Settle Interfund Accounts Monthly and Revise Its Method of Allocating
            Administrative Salary and Benefit Costs


                                  HIGHLIGHTS

 What We Audited and Why


           We audited the Housing Authority of the City of Allentown (Authority) as part of
           our fiscal year 2007 annual audit plan. Our objectives were to determine whether
           the Authority calculated housing assistance payments accurately and properly
           maintained documentation in its tenant files for its Section 8 Housing Choice
           Voucher program according to U.S. Department of Housing and Urban
           Development (HUD) regulations; settled interfund payables accruing to its
           Section 8 program in a timely manner; and properly allocated administrative
           salary and benefit costs to its programs on a reasonable and fair basis. This is the
           first of two audit reports to be issued on the Authority.

 What We Found


           The Authority generally calculated housing assistance payments accurately and
           properly maintained documentation in its tenant files for its Section 8 program
           according to HUD regulations. The Authority did not settle interfund payables
           accruing to its Section 8 program in a timely manner and it did not allocate
           administrative salary and benefit costs to its programs on a reasonable and fair
           basis. As a result, the Authority allowed the Section 8 program’s interfund
           payables to accumulate to $760,109 over a 10-month period and it charged excess
           administrative salary and associated employee benefit costs totaling $150,837 to
           its low-rent public housing program.

           We informed the Authority and HUD of minor deficiencies through a
           memorandum, dated October 23, 2007.


What We Recommend


           We recommend that HUD verify the Authority’s reimbursement of $760,109 to
           settle the Section 8 program’s interfund payables and direct the Authority to
           reimburse its low-rent public housing program $150,837 from the programs that
           benefited from the improper allocation of administrative salary and benefit costs.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.


Auditee’s Response

           We discussed the report with the Authority during the audit and at an exit
           conference on October 30, 2007. The Authority provided written comments to
           our draft report on November 8, 2007. The Authority agreed with the findings
           and recommendations. The complete text of the Authority’s response can be
           found in appendix B of this report.




                                            2
                            TABLE OF CONTENTS


Background and Objectives                                                        4

Results of Audit
      Finding 1: The Authority Did Not Settle Interfund Accounts Monthly         5
      Finding 2: The Authority Did Not Properly Allocate Administrative Salary   7
                 and Benefit Costs to Its Programs

Scope and Methodology                                                            10

Internal Controls                                                                12

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use             14
   B. Auditee Comments                                                           15




                                            3
                     BACKGROUND AND OBJECTIVES


The Housing Authority of the City of Allentown (Authority) was established in 1938 by the City
of Allentown, Pennsylvania, under the laws of the State of Pennsylvania for the purpose of
providing adequate housing for qualified low-income individuals. A five-member board of
commissioners appointed by the City of Allentown governs the Authority. The current executive
director is Mr. Daniel Farrell. The Authority’s main administrative office is located at 1339
Allen Street, Allentown, Pennsylvania.

The Authority owned and operated 1,444 public housing units and administered 1,445 Section 8
housing vouchers under annual contributions contracts with the U.S. Department of Housing and
Urban Development (HUD) during our audit period. The annual contributions contract defines
the terms and conditions under which the Authority agrees to develop and operate all projects
under the agreement. HUD authorized the Authority the following financial assistance from
fiscal years 2004 to 2007:

   •   $24.2 million to provide housing assistance through tenant-based Section 8 vouchers and

   •   $16.1 million in operating subsidies to operate and maintain its low-income housing
       developments.

Under the Section 8 program, the Authority makes rental assistance payments to landlords on
behalf of eligible low-income families. HUD compensates the Authority for the cost of
administering the program through administrative fees.

During the audit period, the Authority used a due-to/due-from accounting system to account for
transactions between funds included within its general ledger. The Authority makes payments
for all of its administrative expenses from a general fund account.

The Authority’s fiscal year begins July 1 and ends June 30.

Our objectives were to determine whether the Authority calculated housing assistance payments
accurately and properly maintained documentation in its tenant files for its Section 8 Housing
Choice Voucher program according to HUD regulations; settled interfund payables accruing to
its Section 8 program in a timely manner; and properly allocated administrative salary and
benefit costs to its programs on a reasonable and fair basis.




                                               4
                                     RESULTS OF AUDIT

Finding 1: The Authority Did Not Settle Interfund Accounts Monthly

The Authority did not settle interfund payables accruing to its Section 8 program in a timely
manner. This condition occurred because the Authority did not have internal controls requiring
it to settle its interfund accounts monthly. High turnover in the Authority’s accountant position
also contributed to this condition. As a result, between July 2006 and April 2007, the Authority
allowed the Section 8 program’s interfund payables to increase monthly without reimbursement.
By the end of April 2007, the Section 8 program owed the Authority’s general fund $760,109.
By developing and implementing controls to ensure that the interfund accounts are settled
monthly, the Authority can put $763,968 to better use over a one-year period.



    Interfund Balances Were Not
    Settled Monthly


                    The Authority used an interfund due-to/due-from accounting system to account
                    for transactions directly between other funds included within its general ledger. A
                    program’s due-to balance (payable) represents amounts it owes another fund or
                    program for disbursements and/or advances made on its behalf. A due-from
                    balance (receivable) represents an amount owed to the program or entity.
                    However, the Authority did not have controls requiring it to settle its interfund
                    accounts monthly. As a result, between July 2006 and April 2007, the Authority
                    allowed its Section 8 program’s interfund payables to increase monthly without
                    reimbursement. By the end of April 2007, the Section 8 program owed the
                    Authority’s general fund $760,109.

                    The Authority makes payments for all of its administrative expenses from a
                    general fund account. The general fund account is funded by public housing
                    operating subsidy and rent revenues. The Authority’s use of these funds to
                    support the Section 8 program for an extended period of time without
                    reimbursement is not a prudent business practice. Further, it is a violation of the
                    public housing consolidated annual contributions contract. The contract states 1
                    that the Authority may withdraw funds from the general fund only for the
                    payment of the costs of development and operation of the projects under the
                    consolidated annual contributions contract with HUD, the purchase of investment
                    securities as approved by HUD, and such purposes as may be specifically
                    approved by HUD. However, in practice, HUD generally allows these funds to be
                    used to pay expenses on behalf of other programs as long as reimbursements are
                    made on a monthly basis, which in this case, the Authority did not do.
1
    Part A, section 9(C).


                                                     5
                    This occurred because the Authority did not have controls in place to ensure that
                    it settled its interfund accounts in a timely manner. Additionally, the Authority
                    experienced high turnover in its accountant position, with three different persons
                    in the position between June and December 2006, which also contributed to this
                    condition. The Authority needs to reimburse its general fund account $760,109
                    and develop and implement controls to ensure that the interfund accounts are
                    settled monthly, thereby preventing an additional $763,968 2 from accumulating
                    over the next year.

    The Authority Is Taking Action

                    We discussed this problem with the Authority during the audit, and it began to take
                    corrective action. On June 1, 2007, the Authority transferred $760,109 from its
                    Section 8 account to its general fund account to reimburse it for the interfund
                    payables due as of the end of April 2007.

    Recommendations

                    We recommend that the Director of the Office of Public Housing, Pennsylvania
                    State Office

                    1A.       Verify the Authority’s reimbursement of $760,109 from its Section 8
                              program to its general fund account.

                    1B.       Direct the Authority to develop and implement controls to ensure that
                              interfund accounts are settled monthly and, thereby, put $763,968 to better
                              use over a one-year period.




2
    See the Scope and Methodology section of this report for details on our calculation of funds to be put to better use.


                                                             6
Finding 2: The Authority Did Not Properly Allocate Administrative
Salary and Benefit Costs to Its Programs

For its fiscal year 2007, the Authority did not allocate administrative salary and employee benefit
costs to its programs on a reasonable and fair basis. This condition occurred because the
Authority did not implement an adequate plan to allocate administrative salary and benefit costs
for its senior management, accounting, and administrative staff while transitioning to project-
based asset management accounting. As a result, it charged its low-rent public housing program
$150,837 in excess administrative salary and associated employee benefit costs. By developing
and implementing a reasonable method for charging these costs among its programs, the
Authority can put $162,758 to better use over a one-year period.



    The Authority Did Not Allocate
    Administrative Salary and
    Benefit Costs on a Reasonable
    and Fair Basis


                    Contrary to its consolidated annual contributions contract, 3 the Authority charged
                    its low-rent public housing program $150,837 in excess administrative salary and
                    employee benefit costs for its senior management, accounting, and administrative
                    staff for its fiscal year 2007. The consolidated annual contributions contract
                    limits low-rent public housing funds to the payment of program expenditures.

                    In January 2006, the Authority implemented a new computerized timekeeping and
                    labor distribution system, which it ran parallel with the existing timekeeping
                    system until July 2006. The Authority was changing its operations in anticipation
                    of HUD’s transition to project-based asset management accounting. It put the
                    new timekeeping system into permanent use as of July 2006. From that time
                    forward, employees directly charged their time to the programs on which they
                    worked by using electronic timecards. Employees charged time not directly
                    related to a specific program to a catch-all low-rent public housing account known
                    as the central office account. The Authority did not make any further allocation
                    of the salary costs charged to this account. Also, from July 2006 forward, the
                    Authority charged employee benefits to its programs based on a rolling average of
                    hours charged by program in the previous six months. As with the administrative
                    salary costs, the Authority made no further allocation of the employee benefit
                    costs charged to the central office account.

                    We compared the actual salary and benefit costs charged to the low-rent program
                    for the Authority’s fiscal year 2007 under the new timekeeping system to the
                    costs that would have been charged if the Authority had used a percentage-of-
3
    Part A, section 9(C).


                                                     7
                    units methodology to allocate costs for employees in eight positions. We selected
                    the eight positions from an employee time allocation report for the six-month
                    period August 2006 to January 2007 because the percentage of time the
                    employees charged to the central office account was greater than 50 percent, and
                    the percentage was greater than the percentage that the Authority would have
                    charged under its allocation plan in effect prior to the implementation of the new
                    timekeeping system. The following chart shows the amount of excess costs
                    charged to the low-rent public housing program by position.

                                                                    Amount of excess salary and
                                           Position
                                                                    benefit costs charged to the
                                                                        low-rent program
                               Executive director                                $ 30,463
                               Deputy executive director                         $ 29,758
                               Comptroller                                       $ 21,311
                               Accounting clerk                                  $ 18,818
                               Executive secretary                               $ 17,844
                               Purchase clerk                                    $ 12,502
                               Receptionist                                      $ 11,993
                               Accountant                                        $ 8,148
                               Total                                             $150,837

                    We discussed this issue with the Authority during the audit. The Authority agreed
                    that it should have allocated the administrative salary and benefit costs charged to
                    the central office account to all of its programs. The Authority acknowledged that
                    it did not implement an adequate plan to allocate administrative salary and benefit
                    costs while transitioning to project-based asset management accounting. As a
                    result, for its fiscal year 2007, the Authority neither reasonably allocated
                    administrative salary and benefit costs to its programs nor recouped
                    administrative salary and benefit costs by charging its programs a management
                    fee as part of its project-based asset management accounting system. The
                    Authority needs to develop and implement a management fee schedule that
                    includes a reasonable and fair share of administrative salary and benefit costs to
                    be charged to its programs. In doing so, it can prevent an additional $162,758 4
                    from being charged without a reasonable and fair basis over the next year.

    Recommendations

                    We recommend that the Director of the Office of Public Housing, Pennsylvania
                    State Office, direct the Authority to




4
    See the Scope and Methodology section of this report for details on our calculation of funds to be put to better use.


                                                             8
2A.   Reimburse the low-rent public housing program $150,837, or the amount
      determined to be excess through reconciliation of the salary and benefit
      costs allocated for fiscal year 2007, from the programs that benefited from
      the incomplete allocation of salary and benefit costs.

2B.   Develop and implement a management fee schedule that includes a
      reasonable and fair share of administrative salary and benefit costs to be
      charged to its programs and, thereby, put $162,758 to better use over a
      one-year period.




                                9
                         SCOPE AND METHODOLOGY

We performed the audit at the Authority in Allentown, Pennsylvania, from February through
October 2007. The audit was performed in accordance with generally accepted government
auditing standards and included tests of internal controls that we considered necessary.

The audit covered transactions representative of operations current at the time of the audit and
generally included the period June 2003 through February 2007. We expanded the scope of the
audit as necessary. During the audit, we assessed the reliability of computer-processed data
relevant to our audit by comparing the data to hard-copy information and to other supporting
information as appropriate. We found the computer-processed data were sufficiently reliable to
meet our audit objectives.

To determine whether the Authority calculated housing assistance payments accurately and
properly maintained documentation in its tenant files for its Section 8 Housing Choice Voucher
program according to HUD regulations; settled interfund payables accruing to its Section 8
program in a timely manner; and properly allocated administrative salary and benefit costs to its
programs on a reasonable and fair basis, we

   •   Reviewed applicable regulations and guidance.

   •   Reviewed the Authority’s internal control structure.

   •   Reviewed the Authority’s consolidated annual contributions contracts.

   •   Reviewed the Authority’s independent auditor’s reports for fiscal years 2004 through
       2006 and other financial records as appropriate.

   •   Reviewed minutes of the Authority’s board of commissioners meetings.

   •   Reviewed HUD and Authority correspondence related to a rental housing integrity
       monitoring review conducted by the Philadelphia field office in July 2006.

   •   Discussed operations with management and staff personnel at the Authority and key
       officials from HUD’s Philadelphia, Pennsylvania, field office.

   •   Reviewed general ledger account balances, accounting transactions, and supporting
       documentation.

   •   Corresponded with personnel from HUD’s Financial Management Center.

   •   Nonstatistically selected and reviewed 10 Section 8 tenant files to verify eligibility and
       the accuracy of housing assistance payment calculations. The 10 files contained 33
       certifications/recertifications that the Authority completed during the period July 2005 to
       February 2007.


                                               10
•   Reviewed the fiscal year 2007 interfund account activity for the Authority’s Section 8
    program. During the 10-month period from July 2006 to April 2007, the due-to balance
    in the interfund account increased by $636,644 without any reimbursement; therefore, the
    average monthly increase was $63,664 ($636,644 divided by 10 months = $63,664 per
    month). Using the average monthly amount, we estimated that the Authority could
    prevent $763,968 ($63,664 multiplied by 12 to annualize = $763,968) from accumulating
    over the next year.

•   Reviewed an employee time allocation report for the six-month period August 2006 to
    January 2007 and selected 8 of the 10 positions in which employees charged the central
    office account during that period for further analysis. We selected the eight positions
    because the percentage of time the employees charged to the central office account was
    greater than 50 percent, and the percentage was greater than the percentage that the
    Authority would have charged under its allocation plan in effect prior to the
    implementation of the new timekeeping system. We compared the Authority’s fiscal
    year 2007 actual allocation of salary and benefit costs for these employees to the costs
    that would have been charged if the Authority had used the percentage-of-units
    methodology to allocate the costs as it had in the past. As a result, we found that the
    Authority did not properly allocate $150,837 of salary and benefit costs in its fiscal year
    2007 for these employees. We estimated that the Authority could prevent $162,758 from
    being charged without a reasonable and fair basis over the next year. Our estimate
    includes the Authority’s 2008 budgeted salary costs for the employees in the eight
    positions, including a full year of salary for the accountant position which had been
    periodically vacant during the Authority’s fiscal year 2007. We estimated the 2008
    benefit costs as a percentage of the 2008 salary costs using the percentage of benefits to
    total salary for the employees from fiscal year 2007. We combined the 2008 salary and
    benefit costs, by employee, and multiplied the totals by the percentage of excess salary,
    by employee, from our calculations for 2007. The total estimated excess salary and
    benefit costs for 2008 for all eight positions was $162,758.




                                            11
                              INTERNAL CONTROLS


Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined the following internal controls were relevant to our audit objectives:

               •    Policies, procedures, and other controls implemented by the Authority to
                    ensure that it calculated Section 8 housing assistance payments accurately,
                    properly maintained documentation in its tenant files, settled Section 8
                    interfund payables in a timely manner, and properly allocated administrative
                    salary and benefit costs to its programs on a reasonable and fair basis.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weaknesses


              Based on our review, we believe the following items are significant weaknesses:

              The Authority did not

                •     Have controls to ensure that interfund accounts were settled monthly.

                •     Implement an adequate plan to allocate administrative salary and benefit
                      costs among its programs.


                                               12
Separate Communication of
Minor Deficiencies


           Minor internal control and compliance issues were reported to the Authority by a
           separate letter dated October 23, 2007.




                                            13
                                   APPENDIXES


Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                 Recommendation         Ineligible 1/      Funds to be put
                     number                                to better use 2/
                       1A                $760,109
                       1B                                      $763,968
                       2A                $150,837
                       2B                                      $162,758
                      Total              $910,946              $926,726



1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. If the Authority implements our recommendations, it
     will cease accumulating significant interfund payables in its Section 8 program and
     charging administrative salary and benefit costs to its programs without a reasonable and
     fair basis. Once the Authority improves its controls, there will be a recurring benefit.
     Our estimates reflect only the initial year of this benefit.




                                            14
Appendix B

             AUDITEE COMMENTS




                    15
16
